<html>
<title> - DEPARTMENT OF DEFENSE LABORATORIES AND THEIR CONTRIBUTIONS TO MILITARY OPERATIONS AND READINESS</title>
<body><pre>[Senate Hearing 115-604]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-604

DEPARTMENT OF DEFENSE LABORATORIES AND THEIR CONTRIBUTIONS TO MILITARY 
                        OPERATIONS AND READINESS

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2017

                               __________

         Printed for the use of the Committee on Armed Services
         
         
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


       Available via the World Wide Web: http://www.govinfo.gov/


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-204 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3552455a75564046415d5059451b565a581b">[email&#160;protected]</a>                  



                      COMMITTEE ON ARMED SERVICES
                      
                      
  COMMITTEE ON ARMED SERVICES
                      
 JOHN McCAIN, Arizona, Chairman                            
JAMES M. INHOFE, Oklahoma, Chairman	JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
LUTHER STRANGE, Alabama              	GARY C. PETERS, Michigan
                                                          
             
                 Christian D. Brose, Staff Director
                 Elizabeth L. King, Minority Staff Director            
                                    
                      
  
________________________________________________________________

           Subcommittee on Emerging Threats and Capabilities

    JONI ERNST, Iowa, Chairman  	MARTIN HEINRICH, New Mexico
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			JEANNE SHAHEEN, New Hampshire
DAVID PERDUE, Georgia			GARY C. PETERS, Michigan
TED CRUZ, Texas                      
                                     
                                 
                                     
                                  (ii)

  
                        C O N T E N T S

_________________________________________________________________

                              May 3, 2017

                                                                   Page

Department of Defense Laboratories and Their Contributions to         1
  Military Operations and Readiness.

Flagg, Melissa L., Ph.D., Former Deputy Assistant Secretary of        3
  Defense for Research, Office of the Secretary of Defense.
Holland, Jeffery P., Ph.D., Former Director, Engineer Research        4
  and Development Center, United States Army Corps of Engineers.
Montgomery, John A., Ph.D., Former Director of Research, Naval       14
  Research Laboratory, United States Navy.
Peters, Ricky L., Former Executive Director, Air Force Research      16
  Laboratory, United States Air Force.

                                 (iii)

 
DEPARTMENT OF DEFENSE LABORATORIES AND THEIR CONTRIBUTIONS TO MILITARY 
                        OPERATIONS AND READINESS

                              ----------                              


                         WEDNESDAY, MAY 3, 2017

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:32 a.m. in 
Room SR-222, Russell Senate Office Building, Senator Joni Ernst 
(chairman of the subcommittee) presiding.
    Present: Senators Ernst, Wicker, Fischer, Heinrich, 
Shaheen, and Peters.
    Also present: Senator Warren.

            OPENING STATEMENT OF SENATOR JONI ERNST

    Senator Ernst. Good morning, everyone. It is just a smidge 
after 10 a.m., so we will go ahead and call this meeting of the 
Emerging Threats and Capabilities Subcommittee to order.
    Today, we will receive testimony on the Department of 
Defense laboratories and their contribution to military 
operations and readiness. I am pleased we have Dr. Melissa 
Flagg, Dr. Jeffrey Holland, Dr. John Montgomery, and Mr. Ricky 
Peters with us here today. Thank you very much for being on our 
panel.
    I look forward to their testimony, and I hope they are not 
only able to talk about the importance of laboratories but also 
the unique role our universities and the private sector play in 
advancing research and development for our Department of 
Defense.
    From personal protective equipment and lighter radio 
batteries for our infantry to directed energy, the technology 
researched and developed today will ensure we continue to 
outmatch our adversaries tomorrow.
    So we appreciate you being here today, and I would like to 
open it up to my ranking member for his comments.

              STATEMENT OF SENATOR MARTIN HEINRICH

    Senator Heinrich. Thank you, Chairman.
    Let me start by just thanking Senator Ernst for holding 
this hearing on our Nation's defense laboratories and 
technological innovation. I know we both understand the 
significance of their impact on national security and the 
economy.
    Today's hearing will help us better understand the 
Department of Defense laboratory enterprise and how this 
committee can work together to help it flourish. The DOD lab 
enterprise is a network of roughly 60 individual laboratories 
across the country, including two in my home State of New 
Mexico, which is proud to host the Air Force Research 
Laboratory at Kirtland Air Force Base, where I actually started 
my career, and the Army Research Laboratory at White Sands 
Missile Range.
    The thousands of men and women at the laboratories, both 
public servants and contractors, play several critical roles 
for the DOD, including rapidly deploying new equipment to the 
battlefield--for example, the labs did the engineering work 
necessary to get the Mine-Resistant Ambush Protected vehicles, 
or MRAPs as we know them, to theater as a rapid response to an 
operational need; supporting acquisition programs to make sure 
that DOD is a smart and technically informed buyer of advanced 
technologies, and helping control costs of major weapons 
systems; and performing cutting-edge, next-generation science 
and engineering research at a network of labs, as well as 
managing research and development programs in industry and 
universities, which have led to equipment and weapons systems 
that our warfighters depend on, like advanced radar and 
satellite systems and munitions.
    A recent Defense Science Board study of the labs stated 
that the labs are the core muscle the department has to create, 
transition, and deploy technology to the warfighter, but we 
need to do more to make sure that those muscles are strong and 
healthy, and that is the focus of the hearing we are having 
today.
    I know that all organizations suffer from constraints on 
their budget, and the labs are no different. I hope our 
witnesses can highlight the biggest budgetary challenges facing 
the labs, so that we can consider how we can address them as we 
work on this year's defense authorization act.
    I am also interested in understanding how reductions to 
funding for civilian science agencies, agencies like NASA 
[National Aeronautics and Space Administration] and NSF 
[National Science Foundation], will affect science and 
technology that is important to defense missions, and whether 
the labs could, with more resources, help address shortfalls in 
the Nation's scientific enterprise that may be coming due to 
those budget cuts, for example, in areas like STEM [Science, 
Technology, Engineering and Math] education or even university 
research.
    I also would like the witnesses to help the subcommittee 
understand how we can support the labs by streamlining laws and 
regulations and bureaucratic processes. On the Armed Services 
Committee, we have done a lot in the past to make the hiring 
process easier at the labs so that our labs can better compete 
with private sector enterprises to get the best talent.
    I also know there are major challenges in funding lab 
facilities and equipment, and in untangling the labs from 
government red tape. I would like to hear the witnesses' ideas 
on what red tape they have encountered personally in many years 
of service at the labs, and how we can best address some of 
those challenges.
    Finally, I know that DOD leadership and this committee want 
to make sure that our warfighters benefit from the great spirit 
of American innovation, including private-public partnerships 
with Silicon Valley. I know that DOD has efforts like DARPA 
[Defense Advanced Research Projects Agency] and DIUx that try 
to leverage commercial innovation for the benefit of DOD, and I 
think the labs can and should play a bigger role in those 
efforts. I would love to hear from our witnesses their views on 
how we can best make that happen.
    So I look forward to all of your testimony here today and 
will turn it back over to the chair.
    Senator Ernst. Thank you, Senator Heinrich.
    We will start with our panelists this morning.
    Dr. Flagg, we will start with your testimony.

 STATEMENT OF MELISSA L. FLAGG, Ph.D., FORMER DEPUTY ASSISTANT 
 SECRETARY OF DEFENSE FOR RESEARCH, OFFICE OF THE SECRETARY OF 
                            DEFENSE

    Dr. Flagg. First, I just want to say thank you so much for 
having me. It is actually an incredible opportunity to 
participate in my democracy, in our democracy. I really enjoy 
it.
    My mother in Missouri, originally when I said I was going 
to be a witness, thought I had seen a crime, so she is very 
excited to know that I am actually here.
    [Laughter.]
    Dr. Flagg. I want to just start by saying I worked for the 
Department of State and the Department of the Navy and DOD for 
about 12 years, and then I left government, and I went out to 
Chicago to work for a philanthropy there. I spent 2.5 years 
looking at creative scientists all over the country with no 
constraints, no bureaucracy, giving away free money, did not 
ask anybody to write any reports, gave them the money and 
walked away, because it was not taxpayer money, and 
accountability and transparency was not sort of the primary 
goal.
    When I came back, I had a lot of negativity of people 
saying, why are you going back to the bureaucracy? You are 
going to lose all of your optimism.
    I want to say that after 15 months of spending more time in 
the DOD laboratories than probably anyone in OSD [Office of the 
Secretary of Defense], I left the Department of Defense more 
deeply optimistic about the future of this country than at any 
point in my life and so deeply recommitted to spending the next 
30 years focusing on how I can help have people understand the 
capabilities that we have, while also respecting the humility 
and the secrecy that is required in some of these efforts in 
order to ensure that we have sustained advantage.
    So I am an incredible advocate. I am extremely committed. I 
do not believe they are perfect. I also do not believe I have 
met an organization made up of humans that is. I also believe 
that we need to find ways to celebrate the laboratories without 
having it show up necessarily in the New York Times.
    Thank you.
    Senator Ernst. Dr. Holland?

   STATEMENT OF JEFFERY P. HOLLAND, Ph.D., FORMER DIRECTOR, 
 ENGINEER RESEARCH AND DEVELOPMENT CENTER, UNITED STATES ARMY 
                       CORPS OF ENGINEERS

    Dr. Holland. Chairman Ernst, Senator Heinrich, and 
distinguished members of the subcommittee, I really want to 
thank you for the opportunity to discuss both the current roles 
and the future of the science and technology laboratories 
within the Department of Defense. I greatly appreciate the 
support that this committee, in particular, has shown to S&T 
[Science and Technology] over the last several years. I spent 
37 years at the Engineering, Research and Development Center in 
Vicksburg, Mississippi. I actually want to work there just 
after Grant came through----
    [Laughter.]
    Dr. Holland.--and was there right after he left, in fact.
    ERDC [Engineering Research and Development Center] is the 
S&T arm of the U.S. Army Corps of Engineers, and it conducts 
research and development for the warfighter, for military 
installations, and for the Corps' Civil Works' mission. I was 
fortunate enough to be the director of that organization for 
many years, as well as many other functions in the 
organization.
    In fiscal year 2016, ERDC executed a budget of $1 billion 
of S&T for a variety of activities, and for many different 
organizations within the Department of Defense, including $500 
million of what could easily be thought of as other people's 
money within the Department of Defense.
    These activities were involved in solving people's 
problems, which is a primary function of the Department of 
Defense laboratories.
    Today, I would like to address three elements of everything 
that is critical to what ERDC and, in fact, what each of the 
S&T laboratories do. That is people, programs, and facilities, 
and I think we will hear those three concepts all along the way 
as we move through.
    Innovation requires a talented work force. I am proud to 
have represented 2,300 scientists and engineers, technicians, 
and administrative personnel as the director of ERDC for the 
many years that I was the director. ERDC has as its 5-year goal 
to hire 800 additional scientists and engineers, which would be 
a net of 300 of growth for the organization over the next 
several years.
    The authorities that have been given to ERDC and to the S&T 
laboratories under the S&T Reinvention Laboratory Demonstration 
Projects are the very things that make it possible for 
organizations like ERDC to be able to compete in the 
marketplace for the types of talent that the Department of 
Defense laboratories need.
    In every case where these authorities have been fully 
implemented to the laboratories, I have found that the 
laboratories have done a tremendous job of implementing those 
capabilities. Conversely, where those capabilities have not 
been fully implemented in the labs, we have found that those 
opportunities have gone wanting.
    Differing NDAAs [National Defense Authorization Act] have 
provided numerous enhancements to ERDC's hiring authorities and 
those of the other labs, for example. NDAA 2015 provided direct 
hiring authority for students. But, as an example, that 
authority has not yet been fully delegated to the laboratories.
    Because ERDC has great people and because the other 
laboratories, for that matter, have great people, it can 
execute impactful programs. DOD labs play a key role in 
national security, and ERDC has a long history among the other 
laboratories of providing innovative solutions to keep our 
warfighters and civilians safe.
    ERDC force protection technologies are installed in theater 
to protect base camps from rocket and mortar attacks. The State 
Department is using them for technology to protect certain 
critical facilities and personnel, and many of the buildings in 
the National Capital region, such as the one in which we sit, 
as well as the Pentagon and others, are safe because of ERDC 
protection technologies.
    ERDC's airborne counter-IED [Improvised Explosive Device] 
systems are currently providing CENTCOM [United States Central 
Command] with unique capabilities, and there actually is a 
whole story, and perhaps an undercurrent for another time to 
discuss, of the enormous integration activities that the 
laboratories performed in bringing basic science to bear during 
the height of the IED fight, both in Iraq and Afghanistan, 
where we were able to field solutions in a manner that went 
from 18 months or less to just a very few months in bringing 
solutions to the field.
    ERDC tunnel technologies have been provided and applied in 
Iraq and along the Egypt to Gaza border, U.S. and Mexico, in 
support of DOD and DHS [Department of Homeland Security], for 
that matter.
    Finally, I would like to mention the idea of facilities and 
the 219 program. ERDC, like all of the DOD S&T laboratories, 
needs to modernize and recapitalize its facilities to ensure 
continued world-class support for the warfighter and the 
Nation.
    Its 219 authority allows ERDC to fund facility 
improvements, and it has had great success in using this 
authority. This is particularly important, given that ERDC 
finds great difficulties in obtaining major milcon funding.
    It was rewarding to see that fiscal year 2017 NDAA, signed 
into law in December 2016, extended the program to fiscal year 
2025 and increased the threshold for this capability to $6 
million. Thank you to the committee for supporting this type of 
capability.
    Unfortunately, ERDC has not yet been able to take advantage 
of the authority provided in the 2014 NDAA that allows the lab 
directors to approve funds over multiple years for larger 
infrastructure needs. While ERDC is working to make this 
possible, the labyrinth of implementation issues associated 
with that provides difficulty after difficulty in making that 
possible.
    In conclusion, I took great pride in being the director of 
ERDC, as I am sure you will hear from each of the witnesses 
today in their respective organizations, and I would like to 
mention to you that, in no small part, the ability to provide 
this world-class capability that we do very much have is the 
result of the capabilities that you have helped us to achieve.
    Thank you for this opportunity to give this statement.
    [The prepared statement of Dr. Holland follows:]

              Prepared Statement by Dr. Jeffery P. Holland
    Chairman Ernst, Senator Heinrich, and distinguished members of the 
Subcommittee, thank you for the opportunity to discuss the U.S. Army 
Engineer Research and Development Center's (ERDC) role and mission as a 
major Department of Defense (DOD) Science and Technology (S&T) 
laboratory. I greatly appreciate the support this committee has shown 
to S&T, and the opportunities this support has provided ERDC over the 
years to enhance its ability to carry out its mission.
    ERDC is the science and technology arm of the U.S. Army Corps of 
Engineers (USACE), conducting research and development (R&D) in the 
areas of Military Engineering, Geospatial Research and Engineering, 
Environmental Quality and Installations, and Civil Works. Army's S&T 
investments develop technology options to ensure the Army is ready 
today and remains robust tomorrow. ERDC, and other Army laboratories, 
create new understandings that translate research into militarily-
useful technologies through innovative solutions to satisfy capability 
gaps across the entire force.
    ERDC's seven laboratories are located in four states: the 
Construction Engineering Research Laboratory in Champaign, Illinois; 
the Cold Regions Research and Engineering Laboratory in Hanover, New 
Hampshire; the Geospatial Research Laboratory in Alexandria, Virginia; 
and the Coastal and Hydraulics, Geotechnical and Structures, 
Environmental, and Information Technology Laboratories in Vicksburg, 
Mississippi. In addition to its laboratories, ERDC has field sites 
conducting specialized research: a 1,800-foot coastal research pier in 
Duck, North Carolina; an Aquatic Ecosystem Research Facility in 
Lewisville, Texas; the Permafrost Research Tunnel in Fairbanks, Alaska; 
and its International Research Office in London, which exists to 
promote cooperation with the international research community as a 
means to advance science and engineering knowledge and technical 
capabilities in areas relevant to the U.S. Army, DOD and our 
international military partners. ERDC has a workforce of more than 
2,300 engineers, scientists and support personnel within its seven 
laboratories and field sites.
    In Fiscal Year 2016, ERDC executed $425 million in research, 
development, test, and evaluation (RDT&E), highlighted by work in 
support of the nine Army S&T Objectives (STO) programs, the Army's top 
S&T efforts warranting Army senior leadership oversight. ERDC also 
executed just over $70 million in Civil Works direct funding on R&D to 
address navigation, flood control and risk management, and ecosystem 
management and restoration. This body of R&D promotes safe and 
resilient communities and infrastructure; helps facilitate commercial 
navigation in an environmentally sustainable fashion; restores degraded 
aquatic ecosystems and prevents future environmental losses; and 
implements effective, reliable and adaptive life-cycle performance 
management of infrastructure. In addition to these major programs, ERDC 
executed more than $500 million in reimbursable programs for every 
Service within DOD and other federal agencies, such as the State 
Department, the Defense Threat Reduction Agency, the Department of 
Interior, the U.S. Bureau of Reclamation, the Department of Homeland 
Security, the National Geospatial-Intelligence Agency, and the National 
Science Foundation.
    ERDC builds its program ($1 billion in fiscal year 2016) by its 
stakeholder base (i.e., Military Engineering, Geospatial Research and 
Engineering, Environmental Quality/Installations, and Civil Works). 
This approach forces ERDC to view problems from stakeholder 
perspectives, rather than from a technical interest perspective, and 
necessitates that it solve problems that span technical areas by 
employing multi-disciplinary teams. As part of its annual program 
development process, ERDC meets with a wide variety of stakeholders to 
better understand their problems. At any given time, ERDC has as many 
as 50 employees embedded in stakeholder organizations to ensure 
complete understanding of stakeholder requirements and to effectively 
transfer technology to these stakeholders.
    To meet stakeholder objectives, ERDC creates tailored scopes of 
work and develops solutions to fit their business processes and 
decision making. It transitions its technology to the Warfighter, to 
Civil Works, to the acquisition community, and to other government 
agencies, academia, and industry. It also provides the Warfighter and 
deployed civilian personnel around the globe with 24/7 access to 
subject matter experts through the USACE Reachback Operations Center. 
ERDC responds to thousands of reachback requests each year from around 
the world. In addition, ERDC provides subject matter experts through 
deployment to both Contingency and Humanitarian Assistance/Disaster 
Relief (HA/DR) operations. Since 2003, ERDC has deployed 335 team 
members, some with multiple deployments, to support Contingency 
Operations; and more than 435 team members to support HA/DR operations 
both CONUS and OCONUS.
    Today, I would like to discuss three components resident in 
everything ERDC does as it carries out its diverse mission--People, 
Programs and Facilities. These three components are essential, not only 
to ERDC's success, but also to the success of each and every Defense 
laboratory.
    Cutting-edge solutions to challenges of national importance, a 
satisfied stakeholder base that returns time and again for the services 
ERDC provides, and world-class facilities in which to conduct that 
research--none of these can be successful without our people. They are 
ERDC's most critical resource and the resource I am most passionate 
about.
    Innovation requires a talented workforce, and I am proud to have 
represented, as ERDC's past Director, the more than 2,300 engineers, 
scientists and support personnel of the ERDC. These men and women are 
committed to solving national security challenges and developing 
technology solutions to ensure the readiness of our Warfighters and the 
installations that support them, as well as their responsibility to 
enhance and protect our nation's water resources and the economic 
security they provide. These team members are agile, stakeholder-
focused, passionate about their work, leaders in their technical 
fields, and committed to the delivery of exceptional products and 
services.
    ERDC partners with academia, industry and the other Services to 
provide solutions to military and national security challenges, but it 
is its in-house capability to assemble multi-disciplinary teams across 
its seven laboratories, in concert with key external partners, of which 
we are most proud. It brings the best minds to the challenge, and 
provides its stakeholders with the technology, products and services 
they need to fit their requirements and meet mission goals.
    If we are to continue providing reliable and sustainable S&T 
solutions to our Nation and Allies, it is vital that we hire and retain 
the best and brightest engineers and scientists our country has to 
offer.
    ERDC has embarked on a human capital initiative to hire 800 
engineers and scientists during fiscal year 2016 to fiscal year 2020 in 
order to maintain and enhance in-house capacity to meet its mission. In 
its first year, ERDC exceeded its annual goal by hiring more than 160 
new researchers. ERDC was able to meet this important goal in large 
part because of its Direct Hiring Authorities, which save time, effort 
and costs, and allow the organization to more effectively hire the best 
and brightest minds available.
    These authorities are possible only because ERDC is one of 18 
Science and Technology Reinvention Laboratories (STRLs) with Laboratory 
Personnel Management Demonstration (Lab Demo) Projects authorized by 
the National Defense Authorization Act (NDAA) for fiscal year 1995, PL 
103-337, Section 342. Thank you for your support of Lab Demo.
    ERDC's Lab Demo Program was implemented in 1998. Its program 
includes Performance Management (Pay for Performance); Position 
Classification (Pay Banding); Hiring flexibilities (Distinguished 
Scholastic Appointments); Employee Development flexibilities (Degree 
Training, Sabbaticals), and Reduction in Force flexibilities to assure 
the best employees are retained.
    Over the years, Congress has recognized and addressed the unique 
human resources needs of the STRLs by including additional authorities 
and provisions in several NDAAs. These include:

    <bullet>  Exclusion of the STRLs from the National Security 
Personnel System;

    <bullet>  Direct Hire for Advanced and Bachelor's Degrees, STEM 
Technicians, and Senior Science and Technical Managers (SSTM) (and 
expansion of these authorities);

    <bullet>  Direct Hire for Students (authorized in December 2014, 
but not yet delegated);

    <bullet>  Ability to adopt a flexibility available in another STRL;

    <bullet>  Non-competitive conversion of students to permanent 
employees;

    <bullet>  Utilization of Retired Annuitants; and

    <bullet>  Retirement incentives payment.

    The foregoing provisions address the uniqueness of STRLs like ERDC, 
first and foremost, by placing the responsibility for Human Resources 
and the accompanying authorities at the Laboratory Director level.
    ERDC's list of success stories is endless, but a few stand out. In 
an age where we are competing with the salaries and benefits offered by 
private industry, the Lab Demo Program has increased ERDC's ability to 
compete for the best and brightest students. Pay for Performance has 
allowed ERDC to achieve a higher retention rate for high performers, 
with an increase in turnover for low performers. ERDC has achieved 
increases in minority and female engineers and scientists, as well as 
an increase in PhDs. It has successfully utilized Voluntary Emeritus 
positions, whose experience and technical skills enhance ERDC's 
reputation and expand knowledge of its programs at universities and 
organizations around the country.
    Implementation and increased authorization for SSTM positions 
within ERDC (23 positions in fiscal year 2016) allows ERDC to recognize 
positions responsible for directing many of its highly visible and 
technical programs. These SSTM positions are especially valuable to 
recognize the performance of higher-level duties when Senior Executive 
Service (SES) and Senior Scientists (ST) spaces are less appropriate.
    While these authorities have greatly enhanced ERDC's ability to 
hire and retain world-class scientists and engineers, it still faces 
challenges. When Congress includes new hiring authorities granted to 
Laboratory Directors in the annual NDAAs, ERDC is currently required to 
implement them by publication of a Federal Register Notice. For 
example, in NDAA 2015, Congress delegated Laboratory Directors direct 
hire authorities for students. The NDAA was signed in December 2014. 
These authorities have not been delegated, nor has a Federal Register 
Notice been published authorizing their use. As a result, the STRLs are 
continuing the untimely process of advertising student positions 
through USA Jobs and losing valuable students to the private sector. 
Additionally, NDAA 2016 authorized the noncompetitive conversion of 
students to permanent appointments, increased authorizations for 
direct-hire appoints and authorities regarding the utilization of 
reemployed annuitants and the payment of retirement incentives. These 
authorities have not yet been delegated.
    I want to thank Congress for its continued support to the STRLs by 
including language in the 2017 NDAA that will greatly benefit the 
STRLs.
    DOD's challenges in recruiting and maintaining a high-quality 
workforce also include competition for these individuals, a limited 
supply of top-quality STEM students and careerists, and the ability to 
make job offers in a timely manner. ERDC's ability to offer competitive 
salaries and benefits, coupled with other provisions in the Direct 
Hiring Authorities, allows ERDC to compete in this hiring pool. 
Additionally, ERDC uses every student program available to increase its 
pool of future recruits. During this past year alone, ERDC employed 
more than 230 student interns from 65 colleges and universities. With 
authority to directly hire students, that number would increase.
    Because ERDC has great people, it is able to execute meaningful and 
impactful programs. DOD Service Labs play a key role in National 
Security, and ERDC has a long history of providing innovative solutions 
to keep our Warfighters and Civilians safe at home and abroad. On 
September 11, 2001, the plane that was flown into the Pentagon struck a 
section that had just been retrofitted with ERDC-developed blast 
protection technology. This protection kept the section from collapsing 
long enough to get personnel to safety, significantly reducing the 
death toll at the Pentagon.
    ERDC has since developed and deployed several pioneering force- and 
terrorist-threat protection technologies. More than $1 billion in 
protection technology has been installed in theater to protect base 
camp structures from rocket and mortar attacks. Research into weapons 
effects on structures and affordable mitigation techniques informed the 
composite and construction industry without revealing theater 
vulnerabilities. ERDC, working with industry partners, identified 
solutions that were technically feasible and readily available for 
immediate fielding. ERDC's Overhead Cover Protection system development 
was fast-tracked, in part, by $250 million in supplemental funding from 
Congress. This multi-layer protection system was designed and 
constructed over existing critical facilities at U.S. base camps in 
Iraq--living quarters, dining halls and other high-occupancy 
facilities--to protect the force from insurgent rocket and mortar 
attacks by preventing them from penetrating overhead cover barriers and 
hitting facilities. This technology reduced a high casualty rate pre-
emplacement down to zero. The State Department later invested in this 
technology to protect its critical facilities and personnel around the 
world. The very building we are sitting in today is safer because of 
ERDC protection technologies in collaboration with the Architect of the 
Capitol.
    Another technology breakthrough is ERDC's Deployable Force 
Protection (DFP) program. Products include the advanced, lightweight 
Modular Protection System (MPS), based on an innovative, patented 
material of high-strength, flexible concrete with ballistic 
performance--comparable to ceramic armor--at a fraction of the cost and 
weight. Four trained Soldiers can assemble an 8-by 12-foot MPS module 
in 15 minutes without equipment or special tools. The Army's Rapid 
Equipping Force (REF) quickly introduced the MPS into Iraq and 
Afghanistan, and in 2010, a modified version was developed for the 
Navy. DFP now includes MPS Mortar Pits, Guard Towers and other quickly-
deployable protection systems that are easily constructed and reusable, 
keeping our Warfighters safe. Prototype protective structures developed 
in the DFP program were recently needed to protect critical assets in 
numerous deployed locations. The lab's inventory of prototype 
structures was rapidly made available to satisfy urgent theater needs, 
while the Army REF procured additional quantities from vendors holding 
licenses for the government-patented technology. Anticipating future 
orders, researchers are working with the Defense Logistics Agency 
Warstopper Program and Rock Island Arsenal's Joint Manufacturing and 
Technology Center to prepare both government and industry manufacturing 
groups to meet future surge requirements.
    ERDC-developed technologies to deny, deter and defeat IEDs are 
being used in Afghanistan, where insurgents employ IEDs powerful enough 
to throw 14-ton MRAP vehicles into the air. In a five-month period at 
the beginning of this emerging threat, more than 100 Soldiers had 
suffered crushed or damaged spinal columns from being thrown around in 
MRAPs. One ERDC advance, called HARD IMPACT, defends U.S. and Coalition 
forces against IEDs placed in thousands of road culverts throughout the 
country by retrofitting existing culverts with protection designs and 
incorporating those designs into new roadway systems. ERDC was 
approached by the U.S. Intelligence community to develop forensics 
capabilities after blast events. Two programs, CALDERA and FERRET, 
developed procedures, tools and training to effectively collect, 
measure and document post-blast forensic signatures of underbelly IED 
attacks. These technologies and products have been transitioned to 
Intel analysts and Warfighters.
    In the interval between 2006 and 2014, in support of numerous U.S. 
Central Command (CENTCOM) Joint Urgent Operation Needs Statements, ERDC 
engineers and research teams led whole-of-government and industry teams 
in developing more than six major quick reaction capability (QRC) 
programs that were formerly recognized by the Joint Improvised 
Explosive Device Defeat Organization (JIEDDO) and CENTCOM as effective 
counter-IED (C-IED) systems. The total ERDC QRC resource execution in 
this period exceeded $2 billion. Airborne systems included Saturn Arch, 
Desert Owl, Copperhead and Radiant Falcon, all of which were 
transitioned to Army Aviation by the close of 2014. At present, Saturn 
Arch and Copperhead continue to provide CENTCOM with unique C-IED 
operational capabilities. On the ground, ERDC led the successful 
development and deployment of the Sand Dog C-IED system, which was 
deployed on Talon robots for both Explosive Ordnance Disposal and 
Engineer Route Clearance teams.
    Tunnel Detection technologies developed by ERDC have been applied 
along the Mexico border, in Iraq, and along the Egypt/Gaza border. ERDC 
is the technology lead for the U.S. Government's Interagency Tunnel 
Deterrence Committee--11 law enforcement and intelligence agencies--
which has been involved in hundreds of tunnel detection efforts along 
the border of Mexico since 9/11. ERDC developed and has remotely 
operated detection systems in Iraqi prisons; at the request of the 
State Department and DOD, ERDC installed a tunnel detection system 
along the Egypt/Gaza border and trained Egyptian military engineers to 
operate the system. ERDC has worked with additional Allies to provide 
tunnel detection technologies and training to help ensure regional 
stability.
    ERDC is collaborating with the U.S. Air Force, Army, Marine Corps 
and others to identify significant challenges for planners, analysts 
and operators that impede the ability to accomplish operations in an 
Anti-Access/Area Denial (A2/AD) environment and the capabilities needed 
to address the challenges. ERDC's role in force projection in A2/AD 
environments is focused on developing and demonstrating technologies 
for planning and conducting entry operations with non-existent, damaged 
or destroyed infrastructure. ERDC technologies include rapid airfield 
repair kits for early-entry airborne engineer units; terrain surfacing 
kits for Unmanned Aircraft Systems (UAS) landing strips, helicopter 
landing zones, and logistics over-the-shore operations; remote 
monitoring of critical infrastructure using infrasound; battlefield 
sensors for operational engineer reconnaissance, assessment and 
planning; and decision support tools to capture Subject Matter Expert 
(SME) processes for remote infrastructure assessment. Coastal modeling 
technology developed in ERDC's Civil Works mission area is also being 
applied to the A2/AD environment, a great example of dual-use 
technology that crosses mission area lines. Also, as part of the Long 
Range Research and Development Planning Program-Ground Combat (LRRDPP-
GC), ERDC and its fellow S&T laboratories are currently working to help 
shape policy for the Third Offset Strategy. This strategy's goal is to 
identify high-payoff, enabling technology investments to provide U.S. 
forces with a decisive advantage in land-associated operations in the 
2030 timeframe.
    ERDC's Map Based Planning Services (MBPS) program provides DOD with 
a unique, web-based capability for military planners to collaboratively 
develop strategic plans. MBPS employs the concept of a digital plan 
with automated tools to reduce the burden of manual work, the risk of 
human errors, and the resources expended on updates and corrections. 
With military planners deployed across the U.S. and all over the world, 
substantial time and cost savings also result from reduced travel to 
various planning team meetings. By increasing efficiency in the 
planning process, MBPS allows planners to provide senior decision 
makers with more options within months rather than years, and thereby 
meet the challenges of a rapidly evolving world.
    National- and theater-level assets provide a synoptic view of the 
operational environment; there is a growing need and a growing number 
of requests for ERDC's Tactical Mapping (T-UAS) program on demand--
high-resolution tactical mapping capabilities at the lowest levels to 
support mission planning and enhanced situational awareness. The T-UAS 
program uses a variety of UAS full-motion video and electro-optical 
image data to rapidly produce 2D and 3D geospatial products and provide 
enhanced local situational awareness to users at the lower echelons of 
the Armed Forces. This technology builds on previous ERDC R&D to fill 
in gaps for mast-mounted Light Detection and Ranging (LIDAR) efforts 
and has gone from a concept and capabilities demonstration in late 2015 
to funding by REF to field mapping platforms and FMV kits for 
Warfighters in Iraq in June 2016 with the first map products created in 
July.
    Future readiness includes not only providing our Soldiers with the 
equipment and technology advances they need to win the fight, but also 
delivering environmentally sustainable solutions for energy, water, and 
waste (EW2) on installations at home and abroad. ERDC R&D also supports 
installation training needs while protecting the environment.
    ERDC has developed a holistic approach for EW2 environmental 
sustainability at military installations around the world and in 
contingency environments. The ERDC-developed Net Zero Planner (NZP) is 
a web-based tool for installation-wide EW2 planning. The tool is 
designed to perform complex engineering calculations with relative 
simplicity and provide an engineering-based solution for planning EW2 
investments at installations. NZP has been demonstrated at multiple DOD 
installations and is currently being used by the USACE Fort Worth 
District to develop sustainability component plans as part of the 
master planning process. ERDC is working closely with Headquarters, 
USACE to develop a transition plan for NZP and incorporate it into the 
planning process across the Corps.
    ERDC is the Army leader in Operational Energy R&D and is developing 
scalable solutions for small, semi-permanent contingency bases (300 to 
1,999 personnel). Operational energy R&D focuses on the primary areas 
of planning and analysis; resilient distribution; metering and 
monitoring; demand reduction; and supply efficiency. These focus areas 
are inter-related and are designed to address all stages of the base 
camp lifecycle. Planning tools such as the Virtual Forward Operating 
Base assist in base camp planning and operation to reduce supply and 
logistics burdens on camp operators. ERDC's Deployable Metering and 
Monitoring System gives operators knowledge of where their resources 
are being used.
    ERDC, together with the National Aeronautics and Space 
Administration (NASA) Marshal Space Flight Center and Kennedy Space 
Center, and Caterpillar, Inc., is developing an additive 3D printing 
technology capable of printing custom-designed expeditionary structures 
on demand, in the field, using concrete sourced from locally available 
materials. The three-year Automated Construction of Expeditionary 
Structures (ACES) program brings together expertise from within ERDC, 
NASA, Caterpillar, and Contour Crafting Corporation to conduct highly-
focused research designed to prototype an automated construction system 
that can fabricate a 500 ft2 structure in less than 24 hours. In late 
2016, when the Secretary of the Army asked for examples of Army 
innovation, the Honorable Katherine Hammack, then-Assistant Secretary 
of the Army for Installations, Energy and Environment, briefed him on 
the ACES program. Presented with more than 35 examples of Army 
innovation, the Secretary chose ACES as one of three to present to the 
Secretary of Defense to show the most promising innovation activities 
going on in the Army.
    ERDC R&D is also providing integrated maneuver land sustainment 
technologies to support installation training land management through 
the use of vehicle-based impact models; application of training 
exercise impact assessment and monitoring technologies; range design 
guidance; impact mitigation and resolution technologies; and 
installation encroachment assessment software. One success story is 
ERDC's work to assess training lands at Fort Hood, Texas, the largest 
active duty armored post in the U.S. Every acre counts, to both the 
Army and to two endangered species of birds that call the installation 
home. In 1993, 36 percent of Fort Hood training land was under seasonal 
training restrictions for habitat protection. ERDC worked with Fort 
Hood biologists for years to assess habitats, sources of negative 
impacts, and potential stress from military training on both species. 
This collaboration has proven that military impacts on the species are 
nominal and that current management strategies have positive impacts on 
both endangered birds. By 2000, the percentage of restricted training 
lands had dropped to 24 percent; by 2010, it was 4.6 percent; and by 
2015, it was 0 percent. The U.S. Fish and Wildlife Service rendered a 
Biological Opinion in 2015 that allows the Army to manage all training 
lands at Fort Hood without seasonal restriction, but within agreed-upon 
impacts to the bird species.
    In the area of information technology, ERDC manages and executes 
the DOD High Performance Computing Modernization Program (HPCMP), a 
comprehensive, highly-integrated, high-performance computing ecosystem 
that includes supercomputers and related expertise, a nationwide DOD 
research network, and system and application software to the Services 
and Defense agencies. The HPCMP is characterized by three core 
elements: DOD Supercomputing Resource Centers, information-assured 
networking (the Defense Research and Engineering Network and associated 
cybersecurity posture), and software applications expertise that 
addresses the unique computational requirements of the DOD. These three 
elements form a complete ecosystem that supports the DOD research, 
development, test, and evaluation (RDT&E) and acquisition engineering 
communities.
    The HPCMP supports approximately 2,000 active users from Army, 
Navy, Air Force, Marine Corps, and other DOD agencies within the 
Science and Technology (S&T), acquisition engineering and Test and 
Evaluation (T&E) communities. HPCMP users address challenges such as 
the discovery of new materials to address unique DOD requirements, 
numerical modeling of hypersonic flight, modeling and prediction of 
weather to support DOD, analysis of space systems, and evaluation of 
options for future DOD systems, including the design of next generation 
aircraft carriers, submarines, air vehicles and ground vehicles.
    DOD Supercomputing Resource Centers (DSRCs) provide advanced 
computational resources and specialized expertise to enable DOD to take 
advantage of supercomputing. DSRCs are located in:

    <bullet>  AFRL DSRC at Wright Patterson Air Force Base in Dayton, 
Ohio;

    <bullet>  Air Force Maui High Performance Computing Center (MHPCC) 
DSRC at the Air Force Optical & Supercomputing Observatory site in 
Kihei, Hawaii;

    <bullet>  Army Research Laboratory (ARL) DSRC in Aberdeen, 
Maryland;

    <bullet>  Army ERDC DSRC in Vicksburg, Mississippi; and

    <bullet>  Navy DSRC at the Naval Meteorology & Oceanography 
Command, Stennis Space Center, Mississippi.

    The Defense Research and Engineering Network (DREN) provides a 
robust cybersecurity posture for the HPCMP. DREN provides a very high 
bandwidth, low latency, low jitter network specially designed to serve 
the needs of the science/engineering and test/evaluation communities. 
The DREN supports Unclassified, Secret, and above Secret communications 
and delivers service to 53 of the DOD's 62 laboratories and 20 of the 
DOD's 22 major range and test centers. In the S&T environment, the DREN 
is a critical enabling technology for the collaborative science and 
engineering workflow; in the T&E environment, the DREN is a unique 
resource enabling a diverse range of critical activities that cannot be 
provided by traditional networks. For example, the DREN supported 26 
T&E events in fiscal year 2016, including:

    <bullet>  F-35 Joint Strike Fighter (JSF) Record and Playback Event 
3

    <bullet>  Small Diameter Bombs (SDB) II Live Fly Testing (On Going)

    <bullet>  TRITON Flight Testing (On Going)

    <bullet>  Aegis Integrated Air and Missile Defense (IAMD) Base Line 
(B/L) 9C1D BLD 18.1.2

    <bullet>  Joint Distributed Infrared Countermeasures (IRCM) Ground-
test System (JDIGS)

    The HPCMP is also charged with the creation, improvement and 
optimization of software applications that use the network and 
supercomputers efficiently to develop effective solutions to the DOD's 
challenges. This includes training for engineers and scientists on 
effective use of HPCMP resources; R&D to pull emerging technologies 
from industry and academic centers into routine use by HPC users; and 
efforts to increase effectiveness of existing applications to new DOD 
challenges or develop new DOD-unique applications.
    The largest strategic software investment for DOD resides in the 
Computational Research and Engineering Acquisition Tools and 
Environments (CREATE) initiative, which provides government-owned high-
fidelity, multi-physics software for ships, air vehicles, radio 
frequency, and ground vehicles essential to supporting the acquisition 
engineering community. While HPCMP-developed software applications are 
service/mission specific, they are designed to provide cross-service/
OSD agency capabilities. As such, these investments provide the 
Department with significant synergies in terms of software 
sustainability and applicability within the services. One example of 
leveraging HPC resources to address high-impact DOD challenges is the 
ERDC-led Engineered Resilient Systems (ERS) program. DOD is leveraging 
years of S&T investment to transform acquisition processes through ERS. 
By enabling more detailed engineering analyses, ERS significantly 
increases the number of materiel alternatives examined early in the 
acquisition process, in equal or less time than traditional methods. 
The program and its associated DOD Community of Interest are developing 
concepts, techniques and tools that significantly sharpen requirements 
prior to major acquisition milestones and support prototyping and 
experimentation.
    In addition to its world-class research to support the Warfighter, 
ERDC is also the world leader in Water Resources Infrastructure and 
Management, Navigation, Operations and Maintenance, and Environmental 
Resources R&D in support of the USACE Civil Works mission. This R&D is 
critical to national security by enabling a vital lifeblood link to our 
nation's commerce and economy, and supports the movement of supplies 
and materiel vital to our national defense. The Civil Works 
capabilities ERDC develops and provides not only support national 
security interests within our borders, but also enable this Nation to 
support water resources maintenance, repair and rehabilitation 
operations in war zones, like Mosul Dam in Iraq, and Kajaki and Dahla 
Dams in Afghanistan. ERDC Civil Works expertise, combined with its 
military technology and environmental security R&D, is truly unique. 
ERDC's ability to leverage these otherwise disparate capabilities 
within the bounds of one organization creates powerful dual-use 
opportunities. ERDC's Critical Infrastructure Protection Program is a 
perfect example of how it leverages its military expertise to protect 
Civil Works infrastructure. Technologies developed to protect personnel 
and facilities in contingency environments have been transitioned to 
protect critical infrastructure in the U.S., from buildings in our 
capitol and major cities, to locks and dams and other navigation 
infrastructure; and from bridges like the Golden Gate, to other 
transportation infrastructure such as subway and railway systems.
    Finally, I welcome the opportunity to discuss the importance of 
facilities, infrastructure and the 219 Program to the overall DOD S&T 
posture.
    The ERDC employs a world-class team and conducts world-class 
research, but it has a need to modernize and recapitalize its 
experimental facilities to ensure it can continue to support the 
Warfighter and the Nation in a world-class manner. While ERDC has some 
new and state-of-the-art facilities, the average age of ERDC facilities 
is 41 years, and its recapitalization rate extends into the next 
century. Technology advances are moving at a rapid pace and U.S. 
adversaries are taking full advantage of these advancements. Research 
facilities must be built to be adaptable and resilient or they will 
become outdated and obsolete. Just as importantly, the Nation must 
ensure our research facilities have sufficient sustainment dollars in 
order to minimize the amount of research dollars we must divert to 
support operations and maintenance. Finally, our research facilities 
must be of a quality to aid in recruitment and retention of the best 
and brightest research staff in the world.
    In fiscal year 2014 and fiscal year 2015, ERDC was successful in 
obtaining funding for two Unspecified Minor Military Construction 
(UMMC) projects using the Laboratory Revitalization Program authority 
provided by this Committee. With that funding, ERDC constructed a new 
$2.5 million Fragmentation Research Facility and will soon begin 
construction of a $3.8 million facility to construct large concrete 
targets to support blast, penetration and fragmentation research. For 
fiscal year 2017, ERDC submitted a list of requirements for 
consideration in the UMMC program, its number one priority being a 
Transformer Yard ($1.9 million) at its Cold Regions Research and 
Engineering Laboratory in New Hampshire that will improve efficiency, 
safety and operations. ERDC also included a project to expand its 
capacity to improve Projectile Penetration Research ($3.8 million) at 
its Vicksburg, Mississippi, campus to meet current and future 
requirements. Both projects were selected for funding in fiscal year 
2017. The expanded authority for labs provided in the Laboratory 
Revitalization Program, particularly the $4 million UMMC threshold, has 
been extremely valuable to the ERDC. It was rewarding to see that the 
fiscal year 2017 NDAA signed into law in December 2016 extended the 
program to fiscal year 2025 and increased the threshold to $6 million. 
ERDC hopes to take advantage of the new threshold right away, and is 
optimistic that, over the next few years, Congress will see fit to make 
this program permanent, allowing Laboratory Directors to plan and 
execute infrastructure improvements well into the future.
    While ERDC has had some success with minor construction, it has yet 
to break into the Major Military Construction future years' defense 
plan. ERDC has not had a project funded with MILCON in recent memory, 
nor does it have one in the current POM. In light of significant 
reduction in funds available for military construction and the 
requirement for Army leadership to support Soldier readiness 
initiatives, ERDC has deferred asking for support in MILCON for the 
past few years. ERDC leadership has begun identifying requirements 
where MILCON would be an appropriate funding source in order to try 
again in future. With limited funds available and considering Army 
needs, it is understood that there will be many more projects deferred 
than will be programmed for funding. This reality is likely to remain 
the situation for years to come, making the Laboratory Revitalization 
and 219 authorities even more critical to ensuring laboratory directors 
can respond quickly and adapt to emerging threats.
    ERDC's 219 Authority gives it a mechanism to provide funds for 
innovative research, technology transfer, workforce development, and to 
improve facilities and infrastructure. ERDC has had great success in 
using this authority over the years and greatly appreciates the 
Committee's willingness to extend the authority each time it was close 
to expiration, to expand the authority, and to provide clarification of 
the Congress' intent in order to improve the program's effectiveness. I 
always appreciated that your staff took the time to meet with me here 
in Washington, DC and travel to ERDC facilities and see firsthand how 
we were implementing this program. The cooperation across the Committee 
staff and with their colleagues in the House has resulted in a great 
program, and I am pleased to see that the fiscal year 2017 National 
Defense Authorization Act made this authority permanent and increased 
the amount that can be collected from 3 to 4 percent.
    The 219 Program has allowed Directors to allocate funds toward 
research efforts to address needs and requirements that arise faster 
than the normal budget planning cycle. This was recently highlighted by 
an ERDC investment to develop an Advanced Blast Load Simulator 
prototype. This research led to a working 4-ft by 4-ft prototype and a 
comprehensive and affordable plan to build the capacity to conduct 
controlled blast experiments on target surface areas of 12-ft by 12-ft. 
Previous attempts to build this scale were technically challenging and 
cost-prohibitive. Conducting blast experiments of this size in a 
controlled laboratory environment will allow ERDC to perform multiple 
experiments in a shorter period of time at significantly reduced cost 
and with improved accuracy. Full-scale field tests are expensive, time-
consuming, and require valuable range time. While field tests will 
always be necessary, the simulator will ensure those tests are optimal 
and shorten the time required to provide solutions to save Soldiers' 
lives. This would not be possible without Section 219 authority.
    In fiscal year 2015 and fiscal year 2016, the 219 Program allowed 
me, as then-Director of ERDC, to spend approximately $5 million a year 
to upgrade facilities infrastructure at the four main ERDC sites and at 
our research facilities in Alaska. Improvements include airfield and 
pavement testing areas; backup generators and chemistry labs for 
projects that ensure ERDC was able to properly maintain housing of 
animals and live organisms for experimentation; and to upgrade and 
maintain dominance in extreme cold environments. Each of these projects 
is relatively small compared to some of the multi-million dollar 
military construction projects you may see, but they have a huge impact 
on the quality of research and capability of ERDC engineers and 
scientists. I appreciate the flexibility this mechanism provides. 
Unfortunately, the labs have not yet been able to take advantage of the 
authority you provided in the fiscal year 2014 NDAA that allows 
directors to accrue funds over multiple fiscal years to support larger 
infrastructure needs. Laboratories continue to work toward a way to 
implement processes that will allow them to do this in an accountable, 
auditable and sustainable fashion. Your staff are aware of this and are 
committed to working with the laboratories to address these challenges.
    In conclusion, Army Chief of Staff General Mark Milley has stated 
that ``we will do what it takes to build an agile, adaptive Army of the 
future. We will listen and learn . . . from the Army itself, from other 
Services, from our interagency partners, but also from the private 
sector . . . we will change and adapt.'' I always took pride in the 
relationships ERDC built within the Army, with its Service partners and 
other federal agencies, and with academia and industry. These were 
``my'' stakeholders, as were Congress and the American public. It is 
for you I worked, and I did not take lightly the trust that was placed 
in me to solve problems critical to our Nation's security and the well-
being of our Armed Forces and citizens.
    The engineers and scientists, support personnel, and leadership of 
the U.S. Army Engineer Research and Development Center take extreme 
pride in what they do. On behalf of its new leadership, I invite you 
all to visit at any time to see this firsthand as you talk to the ERDC 
team. ERDC team members come to work every day, knowing that what they 
do makes a difference--they are saving lives; helping safeguard our 
citizens at home and around the world; and protecting and enhancing the 
environment around us.
    Thank you for your time.
    Madam Chairman, this concludes my statement. I would be happy to 
answer any questions you or other Members may have.

    Senator Ernst. Thank you very much, Dr. Holland.
    Dr. Montgomery?

  STATEMENT OF JOHN A. MONTGOMERY, Ph.D., FORMER DIRECTOR OF 
    RESEARCH, NAVAL RESEARCH LABORATORY, UNITED STATES NAVY

    Dr. Montgomery. Thank you very much. I have to tell you how 
I ended up at the Naval Research Laboratory.
    Like many things in life, and often in science, it was an 
accident. It turns out that I was in graduate school, that it 
was time for me to come out. I had a pregnant wife. I had no 
way to pay for the baby. I heard through the grapevine that NRL 
was hiring, and I signed up sight unknown what I was going to 
end up with.
    I ended up in the Electronic Warfare Division of the Naval 
Research Laboratory in the fall of 1968. I served in that 
division for 34 years, and 17 years as its director. Then in 
2002, I ended up as the director of research of the Naval 
Research Laboratory.
    You know, I thought my first 34 years were fun. The second 
14 that I served as director was not only great fun, it was 
very rewarding. But it was very challenging, and, in many ways, 
we had a lot of help from the folks on the Hill at managing 
some of our challenging problems.
    I retired from Federal service on the 3rd of August 2016.
    So I am really grateful to have an opportunity to talk to 
you about my experiences there at the lab. I am currently, as 
far as DOD is concerned, a private citizen. I will express a 
point of view which is mine, but that is founded in almost 50 
years both as a practicer and a participant in the larger DOD 
lab community. I have witnessed firsthand the great value that 
it has had to the Department of Defense and in many ways 
unrecognized, unseen, and unappreciated.
    One of the greatest EW [electronic warfare] solutions is an 
active electronic decoy, which is towed by aircraft. Its 
success rate is really high. I am proud of having been involved 
in that. But it does not say NRL [Naval Research Laboratory] 
inside. It does not recognize the fact that the magnet 
technology that made the power source a traveling wave tube 
small was invented by NRL, or that the cathode and the beam 
control and the aerodynamics and the control systems all came 
out of the DOD laboratories, and we worked at the Navy and Air 
Force until it was completed and fielded. At the time, it was a 
revolutionary solution, which serves us well today.
    So there are many things that I mentioned that we had 
received as new authorities--section 342 that gave us the STRLs 
[Science and Technology Reinvention Laboratory]; section 219, 
the direct hire authority--all of those have been very 
important to us, and we have been able to use them effectively.
    The direct hire authority, there are several hundred people 
at the laboratory that we hired using direct hire authority. 
The creation of the Karles fellowship program named after 
Jerome and Isabella Karle, he a Nobel Laureate in physics, she 
equally honored. He was a chemist, and she was also a chemist. 
We named it after her. We have almost 200 of those, the best 
and the brightest this Nation has to offer from all over.
    There are authorities that await implementation, such as 
1107(h), the NDAA of 2014, which would further strengthen the 
laboratory.
    So I am going to tell you a little bit about the lab. It 
was created in 1923 by an act of Congress. Its role is to do 
basic science, fundamental technology, and see that it 
influences and gets embedded in naval systems. That is both the 
air part of the Navy, surface submarines, the space part of the 
Navy, as well as in the Marine Corps, and to take that science 
and technology understanding and harness it to the solution of 
problems emerging operationally in the Navy and the Marine 
Corps, and bringing that knowledge to bear to solve those 
problems.
    An example of that, of course, is the work that has been 
done over the last number of years in dealing with improvised 
explosive devices, and others which may yet arise in the 
radiological and biological and nuclear area.
    So NRL has had a long history of putting things out there 
that changed the military forces and changed the world, in 
fact. Many of them with civilian impact--sonar, radar, nuclear 
submarines, global positioning system, spy satellites. NRL 
built and fielded 100 satellites with Federal employees out of 
NRL. Electronic warfare, which was founded out of the lab, 
which has come to be of greater importance recently. All of 
these are continuing today.
    Some of the things that we are working on are just now 
revealing what their potential may be--the electromagnetic 
railgun that allows you to fire projectiles at Mach 7 or Mach 
8, reaching out 100 miles or more. Or in short-range 
engagements, they have the potential of engaging hypersonic 
cruise missiles that otherwise we might not have the ability to 
engage at all due to the deficiency and relative velocities 
that we would otherwise have.
    Spintronics, a new form of electronics which will 
fundamentally revolutionize how we do electronics--higher 
speed, lower power, greater bandwidth. It uses rather than the 
motion of electrons through media--sort of like running through 
a crowd at the mall at Christmastime. You waste all your energy 
bouncing off all those other people. Spintronics do not do that 
at all. They just flip the electron spin. You can actually make 
electron currents.
    A crude analogy of that, and we have all seen this, these 
domino constructs where you push and flop the first domino, and 
you see this wave of dominoes falling over, the dominoes do not 
actually move longitudinally. They just change from vertical to 
flat. That is exactly what happens with these electrons as they 
flip.
    That can carry information for ultrafast processing, high-
bandwidth communication. The laboratory is working with the 
semiconductor industry to transfer that in. It will be a 
fundamental revolution.
    Other things, quantum systems, a big effort on that for 
encryption, for processing, for sensing.
    Bio-printing, very interesting, because what is emerging 
now among these technologies is the ability to take a skin cell 
from your hand, induce it to be fluripotent, specialize it to a 
heart muscle cell, and using 3D printing to build you a brand-
new heart from your own cells and then replace it.
    Given my age, I doubt it will be in widespread use in time 
to help me, but I will take great satisfaction in seeing its 
development along the way.
    Synthetic biology for fuels, for creation of drugs that we 
cannot create today, and the larger field of genetic 
engineering as we start to understand what all we can do in 
synthetic biology with the revolutions in CRISPR/Cas9, where we 
can develop things which are organisms that live and produce 
products we can use that never existed before in nature.
    Other things are still amongst the yet unrecognized 
products of the basic sciences that we are doing at the lab and 
across the larger enterprise. They may become every bit as 
important as the things that I mentioned earlier in terms of 
shaping the world. It may take decades to do that, but they 
may, in fact, change the world.
    So this is done by Federal scientists with deep 
understanding of the Department of the Navy in a Navy-owned 
facility, and its results are owned by the Navy. The laboratory 
and its mission has been of vital import in the past, but it 
may be even more critical in the future as the technological 
and scientific centroid of worldwide activity inexorably moves 
eastward, and we are no longer the sole dominant player in the 
world of science and technology. I hope we will have an 
opportunity to amplify that further on.
    So what are the three things that are the most important to 
me from my experience at the laboratory?
    Allowing the director control over the tools of the 
laboratory. That includes the scientists, the equipment, the 
funding, the pay scales and compensation, and recognition and 
rewarding. Section 1107(h) of the NDAA of 2014 would be of 
great assistance in that area.
    Regenerating our facilities, the average age of the 
facilities at NRL this decade--our decadal replacement rate is 
636 years. When that dropped from 1,101 to 636, I was really 
excited because at least there was a biblical precedent of 
somebody lasting long enough to see one of those cycles 
through, facilities.
    An acquisition system, a means to buy things that is 
tailored to the requirements of buying something in partnership 
with industry and universities that never existed before in the 
history of humanity, and where the outcomes are truly unknown 
because you are probing the boundaries of knowledge and 
understanding, and it was never explored before and it is hard 
to put down on paper the outcome of that science. That is not 
how our current acquisition system is designed.
    So thank you for your patience. Thank you for listening to 
me.
    Senator Ernst. Wonderful. Thank you, Dr. Montgomery.
    Mr. Peters?

 STATEMENT OF RICKY L. PETERS, FORMER EXECUTIVE DIRECTOR, AIR 
       FORCE RESEARCH LABORATORY, UNITED STATES AIR FORCE

    Mr. Peters. Thank you very much, Chairman Ernst and Ranking 
Member Heinrich. It is a real privilege to be here today, and I 
appreciate the opportunity. I am also honored to be here with 
my colleagues to share the Air Force Research Laboratory 
successes, in particular supporting military operations and 
readiness.
    I was privileged to spend 35 years as a civil servant in 
the Air Force. What an awesome, awesome time that was. Ten of 
those years, sort of toward the end, were in the test world, 
which included an assignment at the Pentagon as the director 
for Air Force Test and Evaluation. I did spend 25 of those 
years in the Air Force Research Laboratory.
    I retired in September 2015, and so perhaps some of the 
things I will say today are dated, but it is nice to not have 
anybody script anything for you, to come in and get an 
opportunity to answer your questions, and I am truly looking 
forward to that.
    I can tell you, though, in every assignment I had, I was 
amazed by the talented scientists and engineers and everybody 
else who supported them. That was the one thing that I learned 
in the laboratory and across the Air Force. The contracting 
specialists, the financial experts, the personnelists were just 
world-class. As a result of that teaming that we had, that is 
what enabled our Air Force to be second to none, just an 
amazing group of people.
    So today, I went from an organization of 10,000 people to 
one of 10, so I am now a small-business person on the outside.
    A lot of what we did in the Air Force Research Lab is 
extended into that piece now. I am working for a small company 
that actually is formed by the Greater Dayton Hospital 
Association. The reason I mention that it is 29 regional 
hospitals that grouped together. It includes the VA Center and 
the Wright-Patt Med Center, so there are the military aspects 
of that as well, a group that comes together to help solve 
medical challenges in the region and also looks at things they 
can do together, to work closer together.
    It was an awesome opportunity. Three of those organizations 
in the GDHA [Georgia Dental Hygenists Association] actually 
came together and invested in us, Kettering Health Network, 
Premier Health Partners, and Dayton Children's Hospital. They 
teamed with a small innovation and design firm out of 
Cincinnati called Kaleidoscope.
    So with that group, we actually take unmet needs out of the 
hospitals, and that includes things that perhaps would come out 
of the military side, and look at commercializing those. So 
unmet needs are ideas that we want to take on. This small team 
does that from idea all the way through development, and 
commercializing out the backend and spinning out small 
companies. So it is a great small microcosm of what you would 
find in the AFRL, from very basic research all the way through 
development. But now we add the commercial side into that.
    So a great extension of what I did there. I absolutely 
loved the time that I was there. I will not spend any more time 
talking about that now. I am anxious to hear your questions and 
respond to those. But thank you again for the opportunity 
today.
    Senator Ernst. We appreciate it.
    Thank you all very much. I wish we had a lot of our younger 
generation here. They would be so excited to hear about how you 
utilize science and technology at your various laboratories, 
and the level of enthusiasm is just incredible. So thank you 
very much for that.
    We will start with 7-minute rounds of questions. As we 
happen to be joined by other members, as they come in, we will 
include them in the round of questioning as well.
    My first question to you all today is about soldiers' 
protective equipment. I am concerned that the Department of 
Defense is not devoting enough attention to advancing 
individual soldier's protective equipment, like body armor and 
helmets.
    I am even more concerned that body armor currently produced 
by a private company in Iowa and not being used by the DOD 
appears to be better than what our servicemembers are actually 
wearing when they are out on the battlefield. As we devote 
billions of dollars to advanced aircraft and space 
capabilities, there simply is no excuse for sending an 
infantryman into a fight without the best possible protective 
gear.
    So my question to the panelists, if the best body armor is 
being made in the private sector, how do we go about getting it 
to our servicemembers? We have talked about different 
acquisition issues, but then also, how can the laboratories 
work even further on that personal protective gear?
    Any of you, if you would like to answer? Thank you.
    Dr. Montgomery. There is a bit of a challenge in that the 
services have very large quantities of these equipments to buy. 
One of the fundamental challenges is understanding, when a new 
idea comes about, how to validate and come to understand the 
advantages it represents as compared to that which we have. So 
testing processes are important.
    For example, in working with the Army and new materials as 
developed by industry, NRL is looking at improved ways to 
provide body armor out of new material such as ultrahigh-
density polyethylene fibers to replace Kevlar, working with the 
Army and with industry on fabrication of these vests.
    That does not really address your issue of how you get them 
through the acquisition process, which hopefully we will touch 
on a little further, but it does point out the fact that having 
clear, demonstrable, greater military value than that which is 
already there, which is provable, is really important.
    There are other aspects of the protection as well that you 
can see the very large, cumbersome chem-bio suits that our 
soldiers wear in the field. It is pretty topical these days, 
given what has gone on in Syria. But work in the laboratory and 
in partnership with industry is the coding of every individual 
fiber within the uniform with enzymes that, on contact with 
chemical or biological agents, break them down to harmless 
compounds.
    Those could provide a much more comfortable environment in 
which soldiers, airmen, marines, and sailors can operate in 
those environments, and yet still provide them protection that 
they need.
    So channels that allow those new ideas, better approaches 
to, as an institutional method, move into the mainstream and 
produce and distribute it is something that we need. Rapid 
prototyping and experimentation are going to be critical to 
that, and perhaps we will touch more on that later.
    Senator Ernst. Absolutely.
    Anyone else?
    Yes, Dr. Flagg.
    Dr. Flagg. I think one of the things that I found as I 
traveled around the country and I talked with folks is that it 
is very hard for people who believe they have a great solution 
to understand the context within which that solution would be 
employed, and then to really draw the apples-to-apples 
comparison.
    I think that some of the examples of ways that we can go 
about making this a more effective process are things like 
examples where I know the Army has done these sort of roundups, 
where they allow people to bring their solutions in and have 
them tested out against common goals.
    We sometimes resist using research dollars, that are 
precious and are small and that we fight to protect, to apply 
them to clearly testing and sort of acquisition-related 
processes. But I am a big believer in bringing people at the 
local, state, regional levels into the process.
    I think if you begin to understand that it is not just it 
stops a bullet better, it is that it is light enough, it 
integrates with all of the other equipment, it gives them the 
mobility to run, to move, to shoot, to launch UAVs, to do 
whatever else they need to do, it is a very dynamic 
environment, and it is very different than someone who is in a 
vehicle, getting out, making one shot, which tends to be a more 
domestic context that many of these things locally are 
developed against, sort of those goals.
    So I think if we can develop places, times, moments, where 
folks in the region can bring their ideas together and show 
them, test them out, that actually we would all learn something 
from that. The laboratories could see that there might be parts 
of that they could integrate or that they have tech transfer or 
goals that they could provide to small business to make it more 
likely that those ideas could be developed into robust, 
applicable solutions.
    I also think that it would make regular people feel more 
engaged in their government.
    Senator Ernst. Absolutely.
    Dr. Flagg. To understand what the real need is is very hard 
when you are far away.
    Senator Ernst. Very good.
    Anyone else?
    With that, I will yield back my remaining time. We will 
have time for additional questions in a moment.
    But, Ranking Member Heinrich?
    Senator Heinrich. Thank you, Madam Chair.
    I want to start by asking you all, and I know, Dr. Holland, 
you addressed this a fair bit in your testimony, about some of 
the hiring flexibility that has been provided. It seems like 
that has not been universally applied across the lab 
enterprises.
    How can we do a better job of making sure that that is 
actually utilized? Where are the challenges to making that 
happen? Really, from any of your perspectives, how can we make 
sure that those hiring authorities are actually making it 
through to where we are able to hire more effectively, more 
quickly, and get the talent that we need for these enterprises?
    Dr. Flagg?
    Dr. Flagg. I am going to start, because they are all going 
to say it is our fault, or it was. I am not constrained by the 
OSC lawyers anymore, so I can say what I want.
    Senator Heinrich. That is exactly why we invited you.
    [Laughter.]
    Dr. Flagg. Everybody is nervous behind me now.
    The first thing I would do is call the lawyers from every 
service in here and ask them how they are going to find a way 
to yes, not how they are going to do the easy thing and say, 
``No, I have never done it before.'' Because the lawyers are 
running that organization right now, not the mission 
specialists, first.
    The second thing I would do is call the personnel and 
readiness people in, and the military folks in each of the 
services who oversee the civilian hiring and personnel 
authorities at each of these laboratories, and ask them why 
they are so obsessed with everything being the same rather than 
every part of the system being optimized to fulfill the 
mission.
    The mission is: Send those men and women out into the field 
to do a dangerous, ugly job, and give them the highest 
likelihood to succeed at the mission and come home alive. That 
is the mission.
    The mission is not: How do I make everybody feel like they 
are getting a fair sort of environment where nobody is getting 
special treatment in personnel hiring authorities or how we do 
our budgets?
    Right now, there is more of a focus on controlling your 
little pooka and making sure that nobody gets special treatment 
and everyone is equal and that the lawyers never tell you you 
are going to go to jail than there is on getting the mission 
done. It is a problem.
    I will say that, at the end of 15 months, I had spent 15 
months banging my head against a wall and being a part of the 
problem. When I walked out, it was with a realization that, if 
I ever go back, I would rather risk going to jail than 
tolerating that kind of ignoring of the mission that I see 
happening right now--not because any one individual is trying 
to do the wrong thing, but because everybody is trying to do 
the safe thing.
    Senator Heinrich. Mr. Peters?
    Mr. Peters. Just a couple things that I would add. I would 
say that everything that happened with the laboratory 
demonstration projects and section 340 2 years ago was amazing. 
What I think built just a powerful system there was that we 
took scientists and engineers and said, what would you like the 
system to be?
    We had just a phenomenal mentor in Dr. George Abrahamson 
from SRI. He helped us build that system, and it was a system 
that we wanted and we knew it would help us promote people, to 
retain people, to hire people. It was the right system for us.
    We had one personnelist, incidentally, that was on that 
team. There was a core team of five and about 50 total. The 
personnelist was brilliant because she would say, here is what 
we need to do to get a waiver, and here is who has that 
authority all the way through OPM [Office of Personnel 
Management].
    So you gave us that, and we went forward with it, and we 
built the right kind of system. Everything that has come since 
then, I believe, has taken forever to implement.
    So all the new flexibilities that you have given us----
    Senator Heinrich. Why is that, Mr. Peters?
    Mr. Peters. You know, 2015, the authorities that the Air 
Force was given, and the services, in 2015 in the personnel 
area, the policies still are not in place. We do not know. We 
just do not have them implemented yet.
    Even something like manage-to-budget, we are still being 
monitored in AFRL by the number of slots we have and the 
limitation on over-hiring. Instead of saying manage-to-budget--
we had a goal in the lab of no more than 25 percent of our 
total income that we got would be spent toward salary, so we 
had something. What are we willing to bet, and what are we 
willing to put it risk, knowing that we still had facilities to 
take care of and we still had contracting on the outside to 
support us?
    So truly give us that manage-to-budget authority and stop 
measuring in terms of the number of people, and I believe that 
would really help out in the Air Force.
    In terms of the time, though, that it takes to hire people, 
I cannot answer that. There has been a lot of centralization 
that happened.
    I know, sir, in Albuquerque, we have had some trouble 
hiring in Directed Energy and Space Vehicles. I cannot give you 
an answer for it.
    But we keep trying to look at the process. We keep trying 
to fix it. I think Dr. Flagg had it correct, that we just need 
to get the people out of the way and have something specific 
for science and technology. It was working when we first stood 
up the lab demo projects, I can tell you that.
    Senator Heinrich. Dr. Holland?
    Dr. Holland. Once we get OSD [Office of the Secretary of 
Defense] lawyers all in a room and bind them, however you would 
like to infer that, then the services then put their own spins 
on the implementation. So the guidance that comes out of OSD, 
out of DOD, will have to be clear and relatively unassailable, 
to the services.
    The reason that the original things that happened with the 
laboratory demonstration projects worked so well is because 
there was a clear champion at the beginning. I would suggest to 
you that the new Under for research and engineering----
    Senator Heinrich. Who was leadership-based.
    Dr. Holland.--would have to be viewed as your champion at a 
very high level, someone who owns all of the purview that is 
necessary to make these things happen, and someone who you can 
hold accountable for that matter, because, at the present time, 
you lack that scenario.
    Otherwise, you will get the OSD spin, the service spins, 
legal and the human resources spins. Then by the time you get 
done with those, you have a 2- to 4-year implementation 
planning process going on.
    Some of us have actually gone out and implemented, quite 
candidly, on our own at times, the ones of us who are crankier, 
who did not pay attention to whether we were retired or not. 
That was only way to go ahead and get things going, because we 
felt that you had given us the responsibility and law to do 
that to begin with. That was fraught with difficulties all on 
its own.
    Dr. Montgomery. Let me comment, if I may?
    The direct hire authorities for advanced degrees, bachelor 
degrees, veterans, technicians have been of tremendous value to 
us. We can get a person a firm, formal offer in about 2 weeks. 
Within the Navy, the Navy has allowed this authority for doing 
this to vest in the laboratories within the Navy. That was a 
challenge that OCHR [Office of Civilian Human Resources] 
undertook years ago.
    But we have a fundamental problem. Our pipeline is founded 
largely on students. It may be a faculty member collaborating 
with one of my scientists to say this is the best graduate 
student I ever had. You ought to hire them.
    What we would like to be able to do is go out and use the 
direct hire authority that you have authorized and be able to 
say, yes, I am going to bring that person aboard and make him 
an offer. We used to be able to do that. We can no longer do 
that.
    My summer student program has gone from about 500 a year 
down to a low of 45 a year, creeping back up to about half what 
it used to be. We cannot penetrate the system to get the use of 
the direct hire authority for students.
    If you can help get that through the system, that would be 
of tremendous--I have some hope. Some of the authorities for 
personnel within the demos on 4 April moved to OSD, and we hope 
that maybe there will be a new view in hand after you get the 
lawyers together.
    Senator Heinrich. [Presiding.] I want to thank you all for 
your candor.
    Senator Wicker?
    Senator Wicker. Thank you very much.
    We have a vote, so it may be that members will be coming 
and going.
    But let me direct my first question to Dr. Holland. I want 
to thank you for your work at ERDC. I understand we have some 
scientists from the lab at Mississippi with us today. Would you 
like to introduce the scientists?
    Dr. Holland. They are from all over the ERDC.
    Senator Wicker. Thank you very much. Mr. Ranking Member, 
thanks for indulging me on that.
    Let's connect the dots between the lab to the warfighter, 
if you will, Dr. Holland. How does our supercomputing 
capability eventually help us win the fight?
    Dr. Holland. Senator, the department as a whole has become, 
I would say, close to 50 percent computational in its 
scientific experimentation, if you will. So the supercomputing 
work that we do is fundamental to all of the services and to 
the work that the OSD organizations do.
    A good example would be the work that we did on the MRAP, 
on the underbelly blast. There were multiple Army organizations 
that were involved in that. ERDC was one of those. The Army 
Research Laboratory, the Tank and Automotive Command folks were 
involved in that.
    Endless numbers of calculations were done, literally tens 
of millions of computing hours were used to do blast 
calculations. Those were then compared against very specific 
field studies at multiple scales to make sure that the 
calculations were validated. Then those were extended far 
beyond the range of what we would have ever been able to afford 
in terms of doing real field studies of full-scale 
calculations.
    From that, we made decisions on what the underbelly needed 
to look like for the MRAP. That went to full production, and 
those solutions went to theater.
    From that point forward, we have had, as a military, very 
few, if any, difficulties with IED [Improvised Explosive 
Device] issues with the MRAP from that point forward.
    For the calculations that we believe in, that we validated, 
we have the capability to make those types of decisions now 
through the use of supercomputing.
    Senator Wicker. So that is just one example of a real 
success story there.
    Dr. Holland. Yes, sir.
    Senator Wicker. Let me then transition to some of your 
partnerships with academia. Particularly, I would like for the 
members of this subcommittee to understand your cooperation 
with historically black institutions like Jackson State 
University. How has this worked with Jackson State on cyber 
defense and big data analytics? Can you comment on the larger 
partnership with the historically black colleges and 
universities?
    Dr. Holland. Yes, Senator.
    ERDC, in particular, has educational partnership agreements 
with 13 historically black colleges and universities and 
minority-serving institutions across the Nation. One of those, 
and one of the longest standing ones, is with Jackson State 
University in Jackson, Mississippi.
    JSU has been, at various times, either first or second 
among the research universities in HBCU/MIs in the country. 
ERDC's relationship with them touches cyber, touches 
computational chemistry areas. Those things touch several of 
the military applications that ERDC is involved in. Those 
relationships go back probably 25 years, to my memory.
    Senator Wicker. What would those applications be, an 
example of that?
    Dr. Holland. Those range from environmental quality issues 
related to cleanup of military ranges to keep those ranges 
open, all the way up to specific applications on the classified 
side, to cybersecurity issues, Senator. Those are very strong 
partnerships. There are even extensions of those that go into 
homeland security that involve Jackson State University.
    So we have been able to meld those relationships. For 
example, ERDC, actually, openly provides the library to the 
Jackson State Engineering School that allowed it to be 
accredited under ABET accreditation, so there is a strong 
integration that exists with Jackson State and has been for 
many years.
    Senator Wicker. Well, thank you very much. Let me see if I 
can squeeze in another question in a minute.
    Dr. Montgomery, the Naval Research Lab at Stennis Space 
Center has worked closely with Naval Oceanography to develop 
cutting-edge unmanned underwater vehicle, or UUV, systems.
    Talk about that, and do you believe the Navy and NRL will 
increasingly emphasize UUV research and development?
    Dr. Montgomery. Absolutely. The depths of the ocean are 
profound. Their reach is a vast. In order to be able to access 
areas which are otherwise denied, we need to be able to have 
vehicles that can span large spaces, that can operate 
underwater for very long periods of time, that have the 
intelligence to be able to deal with the unforeseen, the 
mountain, like the San Francisco that did not appear on the 
charts that they were using to detect it.
    So the NRL is working with the Office of Naval Research on 
large-diameter UUVs, which are using hydrogen power, and a GE 
fuel cell based engine of 95 kilowatts, which uniquely we have 
been provided by General Motors to do this, which can provide 
payload-carrying capabilities large distances and large 
payloads.
    Other approaches in the research area are taken where air 
vehicles are designed to penetrate with GPS precision into 
denied areas at bird-like speeds so they do not show up on 
radar, and then insert themselves into the ocean and become a 
UUV already where you want to do your sensing with the ability 
to bring things back out, the information that you gain.
    This is critically important. It is going to proliferate 
widely worldwide, not just what we will do in the U.S., but 
potential adversaries will be doing that as well for undersea 
mapping, for sensors and detection of hostile forces 
underwater, and to penetrate into denied areas.
    It is a real cool area.
    Senator Ernst. [Presiding.] Thank you very much.
    Senator Shaheen?
    Senator Shaheen. Thank you, Madam Chair.
    Thank you all for being here today. I apologize because I 
had another event. I missed the testimony, so if you have 
already been asked this question, I will just ask you to repeat 
it.
    But are the labs currently covered by the hiring freeze?
    Mr. Peters. Yes, they are. I know AFRL is, ma'am. So that 
has been a real challenge. This is the prime time for hiring 
right now. Typically, we do not have trouble recruiting and 
retaining really top-notch people, but there is a blanket 
waiver for some of the PALACE Acquires and some of the things 
like that, but it is impacting AFRL, I can tell you that. There 
are vacancies right now that need to be filled.
    Senator Shaheen. To what extent has the budget uncertainty 
over the last, as long as I have been here almost, affected 
recruitment and hiring? Has that also been an issue?
    Mr. Peters. Historically, that has not been an issue.
    Senator Shaheen. Good.
    Mr. Peters. It is more about not being able to manage-to-
budget, and actually having to keep within the slots that we 
have, the over-hires and the ratio that we have there.
    I believe the flexibility has been given. Personally, I do 
not believe we need more authorities in the personnel area. We 
just need to be able to use the ones that we have.
    Senator Shaheen. Great. So that is really dependent upon 
the leadership within the department?
    Is that the challenge, Dr. Flagg?
    Dr. Flagg. I think the biggest challenge here is that every 
single lawyer between you and a lab director gets to say no.
    Senator Shaheen. I understand that, but let's be clear. The 
reason the lawyers can say that is because the leadership has 
not said to the lawyers get out of the debate.
    Dr. Flagg. I agree. I am not going to argue that. I did 
kind of have a soapbox earlier that you missed on this issue.
    Senator Shaheen. No, I heard it.
    Dr. Flagg. Okay. But I do believe that, as Dr. Holland 
mentioned, there needs to be a strong, unyielding demand signal 
sent to the new Under Secretary for Research and Engineering 
that they are not there just to do cool, sexy things that get 
into the New York Times. They are there to make sure that the 
future of defense, which is in our laboratories, is secure. 
That means doing some of the unsexy stuff like telling the 
lawyer get to yes.
    Senator Shaheen. I doubt that you would get any objection 
from the members of the committee, but ending the hiring freeze 
will also be important.
    Dr. Flagg. Absolutely. I would actually say that the budget 
uncertainty, in my opinion, does, in fact, affect our 
partnerships externally, and it does, in fact, affect 
retention.
    The moral issue that I see when I would visit the labs is 
that not the budget uncertainty hurts in hiring, but it makes 
people feel very uncertain about whether their projects will 
continue or whether they will get to take on new and 
challenging questions. Frankly, they have other opportunities.
    So for me, the budget uncertainty is, in fact, a deep 
challenge, but it is not necessarily the hiring.
    Senator Shaheen. Thank you.
    The Defense Science Board Task Force on Defense Research 
Enterprise--that is a mouthful--indicated that our Nation's 
laboratory infrastructure is becoming outdated and that it 
lacks the benefits of modern efficiencies and technology. In 
New Hampshire, we have the Cold Regions Research Lab, which has 
been very important to us.
    So when I see that kind of conclusion, understandably, I 
question what we ought to be doing to make the changes to make 
sure that our labs can continue to operate efficiently.
    So do you all agree with that conclusion? What should we be 
doing to change that infrastructure so that it works better?
    Dr. Montgomery. May I comment on that?
    Senator Shaheen. Dr. Montgomery?
    Dr. Montgomery. There are a number of areas of concern.
    One is how the milcon process functions. We can make it 
better. I will mention that a little more. We can make it 
better or we can find an alternative mechanism.
    The sustainment models that are used within the Department 
of Defense are inadequate. They have been scored badly by GAO 
[Government Accountability Office]. They have a sustainment, 
renovation, and modernization model which determines how much 
one should spend per square foot to maintain a facility on the 
average over the first 50 years of its life. That model 
provides 40 percent less for a research and development 
establishment in DOD than it does to maintain a public 
restroom.
    The office building called the Pentagon gets about $8 a 
square foot per year. The Naval Research Laboratory, the 
corporate laboratory of the Department of the Navy, received in 
this model at most $2.60 a square foot. Now due to the 
pressures on the budget, the challenge is for it to actually be 
given the amount of money that the model actually calls for. 
Usually, fiscal constraints result in substantially less 
modernization.
    So what do you end up with? What you end up with at NRL, 
you end up with state-of-the-art scientific equipment and some 
of the best and brightest people in physical structures that 
were antiquated.
    Here is my story. We had a building that had $15 million 
worth of scientific equipment in an area that needed a roof. So 
we got the guys to come put a roof on it after years and years. 
The guy putting the roof on set the roof on fire, so we were 
losing the roof. But the good news is the sprinklers actually 
came on. The bad news is they rained down on $50 million worth 
of equipment. The good news is, because the roof had been 
leaking for so many years, all the vital equipment was under 
plastic tents.
    So what happened is we really did not lose that. The good 
news is that the contractor was insured. The bad news is, we 
never saw a penny of it. We had to pay for it out of hide in 
funds that would have been used for something else.
    So the modernization of the facilities is of critical 
importance.
    How can you do it? You can have a set-aside for laboratory 
milcon and fight the battle of the milcon. You can do what I 
suggested that in some quarters was thought outrageous, is you 
change a few words in the law for section 219, where it says 
minor military construction, change it to construction. When it 
says $4 million, you take out the $4 million, and let us take 
the 3 percent from section 219, put that aside for several 
years, and every 3 years, I could have $40 million to $60 
million a year, which would build me a building which was about 
60,000 square feet, which is big enough to be efficient. If I 
have $5 million, $4 million, I am going to get about 8,000 
square feet and stacking those up, as a fundamental solution, 
it is not. It is just a Band-Aid.
    Senator Shaheen. Thank you very much. I have to go vote, 
but I appreciate the conversation.
    Dr. Montgomery. Well, good. Maybe you can vote for what I 
just suggested.
    [Laughter.]
    Senator Shaheen. Well, we will take a look that, won't we, 
Madam Chair?
    Senator Ernst. Absolutely correct. Absolutely correct.
    We will start our second round of questioning. Again, as 
people arrive, we will take those questions.
    So as you all know, when the military wants to research and 
then field a new product, they have to actually build the 
product many times for testing. In Iowa, one of our 
universities has been working with DOD to conduct that testing 
on human-based avatars. It is cutting down the number of times 
we have to make products for testing, and it is saving taxpayer 
dollars, time, and human resources.
    So, Dr. Flagg, can you describe some of the benefits of 
computer-based avatar testing and any thoughts on that program 
and how we might be able to expand that through our 
laboratories?
    Dr. Flagg. Sure. I think that it is an incredibly 
interesting area. I know a little bit about it mostly because 
we are often asked about why we do animal testing. So we have 
to think a lot about when you can use virtual testing and new 
ways of thinking about how we do testing and when you actually 
have to put it onto a living organism to really understand it.
    I think the combination is incredibly powerful. We do not 
actually have a model of the full human system. We are actually 
very complex. While we kind of know how things work, we are not 
actually able to model the things that are going on inside of 
our bodies effectively yet. Most people think we must have 
that, but in science, we just do not have that yet.
    But what we do have is sort of the macro understanding of 
how we interact with the environment. This is where I think 
these virtual training systems that allow you to put the person 
into an environment that was not necessarily created 
specifically with the user in mind--because most engineers, God 
bless them, think more about the machine than they do the 
person until we have to shove one of them in there.
    I think it is an incredible opportunity to be much more 
thoughtful about that very early on in the engineering. I think 
these types of technologies in Iowa and many other places, and 
I think were some of our laboratories are sort of playing 
around with some of this as well, allows you to work on 
something in Iowa where a lab in Massachusetts, at Natick or 
something is working on something similar, to be able to 
compare, where you were doing that similar test in your own 
environments on your own activities, but to be able to share 
those results.
    So I think it increases our ability to integrate across the 
private sector, academia, and our laboratories. It allows us to 
much more affordably test very early in the system, where we 
would not necessarily stick an actual human in. It also allows 
us to test in environments that are incredibly dangerous and 
incredibly hostile. So I do not want to put necessarily a 
person into every explosion. So there are great ways of using 
the virtual testing before you actually get to something like 
WIAMan or some of the other activities that we have in the Army 
that are very expensive.
    So I think it has an incredibly relevant place in the 
system as long as we remember that it is one part of a series 
of things that need to be done to keep the human in mind very 
early on and to make sure that we minimize cost, but also that, 
at some point, we really know what is going to happen when we 
put an actual person in.
    Senator Ernst. Very good. I appreciate it.
    Any other input from our panelists? Dr. Holland?
    Dr. Holland. Yes. It is really important that the 
environment that we are describing be one that can be validated 
in some sense. I think that is what Dr. Flagg was speaking to.
    From that perspective then, as best these environments can 
be built from an understood physics perspective, the more we 
can believe in them. The more that they are constructed from 
pure empiricism, for example, the more we are extrapolating on 
things that we get to the point of guesswork. Then when we add 
very sophisticated graphics on top of those, then we are 
drawing beautiful pictures of things that can be pure baloney.
    Senator Ernst. That is a good point.
    Dr. Holland. In the case of what we are doing for a living, 
that becomes extraordinarily dangerous, because we are 
involving someone's life in the process.
    So we have been trying within the department to begin the 
process of just putting together the key environments that we 
own within the department to be able to put the best physics-
based models together, for example, to see what parts of the 
flight of an airplane, the design of a ground vehicle, the 
design of the ship, et cetera, can be done computationally and 
how many of those trade spaces can we look at long beforehand, 
again, from the idea of being able to play a lot of these what-
if games to gain insight long before we bend metal.
    Those are where we find our best use of the computational 
work, because it generates insight for us. It still leaves the 
human in the loop. But you must be able to validate them in 
order to believe them.
    Senator Ernst. Absolutely, a multilayered approach. 
Absolutely.
    Dr. Montgomery?
    Dr. Montgomery. Models are great. They embody knowledge. 
They capture what you learn and allow you to be able to apply 
it. Developing them to be validatable and accurate, of course, 
is a challenge.
    So sort of extending from the avatar approach, for example, 
you can make physical models of human structures. The skull is 
a mechanical structure. The brain is elastic material with 
certain mechanical properties. So by testing those surrogates, 
you can get to understand what are the kind of effects that are 
going to have consequences for the person.
    So if you have a person who suffers a blast, then there is 
the initial blast, but there is also the shock that 
reverberates internal to the brain on several iterations as the 
shockwave penetrates under the helmet and around the head. 
Certain frequencies of that appear to be more damaging to the 
brain structures, producing traumatic brain injury, than 
others.
    So by being able to get a physical sense of that, then one 
can then feed that into the model that an avatar carries in a 
larger simulation model, which will then allow you to predict, 
if I do this to protect them, here is what the efficacy is 
going to be.
    It is critically important. It takes powerful computers.
    Senator Ernst. Very good. I appreciate that.
    Thank you very much. We will move on. If we can get Senator 
Warren, and we can come back to you, Senator Heinrich.
    Senator Warren, go ahead.
    Senator Warren. Thank you very much, Madam Chair. I will 
get my notes out here. Thank you so much for being with us.
    I appreciate you allowing me to attend this hearing. I am 
not a member of this subcommittee, and I really do appreciate 
it.
    I asked to be here not only because we have world-class 
defense laboratories in my home State of Massachusetts, like 
the Natick Soldier Research Center, and also the MIT Lincoln 
Lab, but also because I believe that the labs and the research 
that they do make up the backbone of our future military 
strength. I just think this is the heart of it.
    Last year, DOD reported that China is investing heavily in 
R&D [Research and Development], including in, and I will read, 
``applied physics, material science, high-performance 
computing, innovative electronics and software development, 
electro-optics, aerospace technology, automation, robotics, 
high-energy physics, and nanoscience, just to name a few.'' So 
that kind of covers it.
    So I would like to start by asking Dr. Flagg, would we 
improve our chances of maintaining future superiority over 
China if we increase our R&D investments in similar advanced 
technologies?
    Dr. Flagg. Thank you, Senator. This is a question that has 
come near and dear to my heart.
    Long ago, I ran the Technical Intelligence office, so I 
spent a lot of time focusing on international S&T, and I was 
overseas with the Navy as well.
    One of the things that I think is really interesting about 
this question is that it is not just a dollar question. It is 
also increasing and modernizing our structures and processes 
and approaches to how we do research. We came out of a period 
post-World War II where the leaders had been decimated. We rose 
in a vacuum, and we came to preeminence in S&T.
    We have been really challenged over the last 20 years in a 
rising era of parity. That same list is being supported here, 
and we need to stay in the race. It is like a marathon of two 
very well-matched competitors.
    But what you want to make sure is that you do not have to 
run so long in that evenly matched race that you get tired 
first. I believe that you have to stay in the race. We have to 
stay competitive and continue investments across those areas or 
we will erode and tunnel under the foundation of our national 
security, period.
    That is not just DOD funding. My Ph.D. was funded by the 
National Institutes of Health Fogarty Center. Many people here 
can tell you that their Ph.D.'s were not funded by the 
Department of Defense. They were funded by a broader S&T 
investment in the U.S. Government.
    But I think the second piece of this is to really think 
about new strategies for winning in an era of parity, what 
success looks like in era of parity.
    I think what this means is that we have to send some of our 
investment back to the first principles. We have to get people 
to come back from purpose-driven vision but not telling them 
the specific question they will answer but having the theorists 
and experimentalists work together to go back to the beginning 
and say, if I am not trying to be more or better or faster or 
more trustworthy or more resilient in cyber, if I go back to 
the first exit and I use all the information we have learned 
over the last 20 years and I created a fundamentally new 
network that would be secure, what would that look like?
    So while we are running the marathon, somebody needs to 
invent the train that takes me to the goal so that I do not 
have to keep running.
    So I think it is both the investment in that list, but it 
is also a new investment in processes that let us think bigger.
    Senator Warren. I totally agree, and I think the point is 
well-argued. Thank you very much. This is sort of the 6.1, 6.2 
investments that we have let fall behind and that are 
absolutely critical, if we are going to have real security in 
the future.
    Let me get to a couple other questions, because I think 
this is really important. I want to ask about a recent Defense 
Science Board report, which highlighted the age and condition 
of our laboratory infrastructure. I saw you grimace on this.
    According to the report, the average Army lab is 50 years 
old. The Air Force and Navy labs average 45 and 46 years, 
respectively. The science board says that, ``Most lab directors 
feel they are unable to maintain their facilities and 
infrastructure to a reasonable standard. They report witnessing 
leaky roofs, imperiling millions of dollars' worth of 
specialized and sensitive equipment,'' as you noted, Dr. 
Montgomery, earlier.
    So I just want to ask the lab directors, just kind of a yes 
and no. Let me start, does that basically fit with your 
experience?
    Dr. Holland. Yes.
    [Laughter.]
    Senator Warren. Yes.
    Mr. Peters?
    Mr. Peters. It does, yes. I would say, though, that the Air 
Force has done a pretty good job in terms of supporting the lab 
in the locations that we are in. We do have probably some newer 
facilities. There are some that are very old.
    Senator Warren. But there are some that are very old.
    Mr. Peters. Correct.
    Senator Warren. So let me turn on this, because I have to 
say, this is what I have seen firsthand when I have been to 
Natick, when I have been to Lincoln Labs. We have these world-
class scientists doing cutting-edge research in buildings that 
were constructed in the 1940s and 1950s.
    Can I ask each of you just to say a word about the 
implications of these old buildings, what it means that you are 
trying to do lab work in buildings with infrastructure that is 
so far rooted in the past?
    Whoever would like to start. Dr. Montgomery? Dr. Holland?
    Dr. Montgomery. It is an interesting experience that I had 
when Reggie Brothers was in OSD. He was visiting my 
microelectronics laboratory where we developed spintronics and 
nanoscience devices, the world's highest powered 220 GHz 
amplifiers that are made by our scientists in our lab, world 
leading.
    We were walking down the hallway, and there is a 
thunderstorm that occurs. All of a sudden, groundwater comes 
gushing out of the water fountain as we are going by because 
the drainage system of this ancient building had ruptured.
    So what do the scientists do? They patch it up, and they 
get back to work. But when they bring somebody in they want to 
recruit, and they have maybe been to Google or they have been 
to some other facility----
    Senator Warren. Do you mean Google has better facilities 
than that? That problem does not happen at Google?
    Dr. Montgomery. I am sure they do.
    Senator Warren. Yes.
    Dr. Montgomery. So this can be both demoralizing for the 
scientists in the laboratory and discouraging to the individual 
who is coming to interview for a job, that the science may be 
very attractive, the equipment to do the science is 
outstanding, the peers with whom they work will be 
extraordinary, but they keep looking at these dingy, dreadful 
surroundings that they are in.
    Yes, it is counterproductive. You can still do world-class 
science in that, but sooner or later--NRL's average is 60 
years. I had 1.8 million square feet of space that was almost 
70.
    So, yes, those are challenges, both from that point of 
view--you can still do the science, but it is challenging to 
moral and people's desire to stay.
    Senator Warren. The ability to recruit. It is a really 
powerful point.
    I am out of time, so I am going to yield to my colleagues 
on this. But I take it this is a widely shared view by those 
who are trying to do the work.
    Dr. Holland. Senator, just quickly, if you just get beyond 
the idea of the embarrassment factor in recruitment and 
retention, just think about the inefficiency.
    You are handing over a facility to people who are world-
class people who invariably are going to be fixing something 
that should be helping them do what they are supposed to be 
doing.
    Senator Warren. It is a powerful point, Dr. Holland. I want 
to say, I appreciate all that you do under very challenging 
circumstances, but we need to be better partners on this, and 
we need to invest so that you have the kind of world-class 
facilities that match the world-class talent that you have.
    So thank you all very much.
    Thank you, Madam Chair, for allowing me to come in like 
this.
    Senator Ernst. Thank you for joining us. I appreciate it.
    Senator Heinrich?
    Senator Heinrich. I want to thank Senator Warren for 
bringing up this issue, because it is endemic across the 
enterprise.
    I also want to thank our guests for their candid remarks on 
hiring authority, and we are going to try to capture some of 
that in a letter to Secretary Mattis that I will be sharing 
with a number of my colleagues.
    I wanted to bring up another issue that involves timeliness 
or sometimes the lack thereof that I hear a lot about from 
small businesses in New Mexico that deal with our labs.
    I have regularly heard about contract delays that sometimes 
are on the order of not months but years. What are some of the 
fundamental issues there that we need to address that cause it 
to take so long to issue a contract from the time that the lab 
decides that they want to enter into that contract to actually 
getting ink on paper?
    Mr. Peters. So just a little bit ago, sir, I talked about 
the success of the personnel demonstration project. I just 
recently looked at section 233 and the language that is in 
that, and if I could be so bold to say that I do not think that 
is bold enough.
    So the personnel system that was built was world-class and 
built by scientists and engineers for scientists and engineers. 
I think you need to have the same kind of contracting 
demonstration project that is put in place. Don't just beat 
around the bush about trying to make everybody feel good and 
look for efficiencies and we need to try to find ways. I think 
you need to direct that there is a contracting demonstration 
project built by scientists and engineers and program managers 
in the laboratory and in the laboratories across the services, 
and bring forward the waivers that need to be brought forward 
to get relief from the FAR.
    You are absolutely right that it is the impact to small 
businesses. I heard it when I was in there. I am experiencing 
it on the outside with other companies today who are doing the 
small business piece of this. It is absolutely critical.
    But let the folks that have to live with this day-to-day 
bring forward their recommendations and have a contracting 
person involved with that can say here are the changes and who 
has the authority to make those changes, rather than just say 
let's take a look at trying to make business processes better.
    Senator Heinrich. Dr. Flagg?
    Dr. Flagg. I just wanted to say that, I mean, I think this 
is so dead on, and I also think empowering those contracting 
officers to be embedded in that team, to have their performance 
appraisal written by the mission, the folks who are leading the 
mission, not by someone back in the Pentagon where I was 
sitting who is in a contracting shop who wants you to do it the 
same way everyone else is doing it, and also giving them a 
little top cover.
    I was horrified when I sat down with Claire Grady at DPAP 
and learned about the personal criminalization of taking risk 
in contracting, how they are publicly shamed for taking risk. I 
think you are never going to encourage someone to take risk if 
you tell them: But if you do and somebody sues you, you may 
wind up on a Web site by name, or you might wind up going to 
jail.
    We have to be very thoughtful about the incentives that we 
bake into the system and have the incentives tied to the 
outcome of the mission, not tied to some statistic PowerPoint 
chart back at the Pentagon.
    Not that I don't like the Pentagon. I love the Pentagon.
    [Laughter.]
    Mr. Peters. Just to give you an example. In the Air Force 
Research Lab, when I was there, there are 11,000 contracting 
actions a year. So they are doing everything that they are 
supposed to do, and they are living by the intent of the law. 
We have OTAs, but we cannot live just by other transactional 
authorities. We need a whole new contracting system and 
authorities in the research lab.
    Senator Heinrich. Any additions, Dr. Montgomery?
    Dr. Montgomery. Let me comment on that as well.
    When you are buying a piece of equipment that is made by a 
small business outfit, and there are two such suppliers in the 
whole world, and one of them has never provided a functioning 
piece of equipment yet, then it should not take 2 years to buy 
the one. The scientists who realize that should not be accused 
of inappropriateness for going to that particular activity.
    So if you are going to do something the like of which was 
never done before in the history of humanity, if you do not 
know what the outcome is going to be when you start, it is hard 
to specify deliverables. If you want to do prototyping, where 
you reach out to small business, you reach out to somebody, 
some activity that has an idea that may or may not pan out, and 
you want to give them an opportunity to display what they can 
do and integrate it in some larger system, which may or may not 
succeed, and do it timely and efficiently, you cannot do it 
under the existing acquisition system, which applies basically 
ACAT [Acquisition Category] I rules to 6.1 type of research.
    You are not going to get across the Valley of Death until 
you can take and bring these things together and demonstrate 
their military value in prototypes in an operational-like 
environment so the payoff of this particular new approach--it 
maybe revolutionary and never existed before--can be 
demonstrably clear and unassailable. That takes rapid 
prototyping.
    It takes a new acquisition system tailored for this, and it 
takes the ability to have the fiscal resources to take the risk 
on prototyping to succeed.
    Absent that, we are at a glacial process where things that 
we need to get done today take decades to achieve.
    Senator Heinrich. [Presiding.] Exactly. We end up losing 
capacity in the meantime, because these contractors are taking 
real monetary risk in entering into these arrangements as well.
    I want to thank all of you for coming today. I want to 
thank you for your candor. I think it is very helpful for all 
of us. I am going to gavel us out here, but I hope that this is 
just the start of the conversation, because I think we have a 
lot to chew on here that we can get to work on, and we very 
much appreciate the input from all of you.
    Dr. Montgomery?
    Dr. Montgomery. Is it possible I could offer one more 
comment?
    Senator Heinrich. You bet.
    Dr. Montgomery. The rest of the world is advancing. China 
is already virtually up here in the scientific world with 
basically 1 percent less of the publications that we have. So 
not only do we have to do our own science, but we have to 
harness the rest of the world's science.
    If we are going to do that, we need to have peer-to-peer 
collaboration across the world to do that. Nobody will 
collaborate with me. I have been off the bench for 30 years. 
But on the other hand, somebody who is a new scientist with new 
ideas collaborating through conferences, through international 
travel--NRL does about 1,200 such collaborations during the 
course of a year, and a couple hundred of them overseas.
    Then we ought to also consider, can we take foreign 
national scientists who came out of one of our great research 
institutions that is of an allied power that was friendly to 
the U.S., have them renounce their former citizenship, become a 
U.S. citizen and be granted clearance to work in our labs? 
Because they are culturally attuned to their originating 
country, that would be a powerful tool for building world-to-
world collaborations.
    Since 2003 to 2013, the percentage of collaborations 
internationally amongst scientists has gone from 19 percent to 
about 30 percent worldwide. It is critically important for our 
future. Thank you for your patience.
    Senator Heinrich. Thank you, Dr. Montgomery.
    Thanks to all of you for joining us today.
    [Whereupon, at 11:27 a.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
